          EVALUATION REPORT

                Inspector General’s Assessment of the
              Most Serious Management and Performance
                        Challenges Facing NRC

                      OIG-12-A-01 October 3, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            UNITED STATES
                    NUCLEAR REGULATORY COMMISSION
                            WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                         October 3, 2011



MEMORANDUM TO:            Chairman Jaczko



FROM:                     Hubert T. Bell /RA/
                          Inspector General


SUBJECT:                  INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                          SERIOUS MANAGEMENT AND PERFORMANCE
                          CHALLENGES FACING NRC (OIG-12-A-01)


The Reports Consolidation Act of 2000 requires the Inspector General of each Federal
agency to annually summarize what he or she considers to be the most serious
management and performance challenges facing the agency and to assess the
agency’s progress in addressing those challenges. In accordance with the act,
I identified seven management and performance challenges confronting the Nuclear
Regulatory Commission that I consider to be the most serious.

We appreciate the cooperation extended to us during this evaluation. The agency
provided comments on this report, which have been incorporated as appropriate. If
you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector
General for Audits, at 415-5915 or me at 415-5930.

Attachment: As stated
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




EXECUTIVE SUMMARY

   BACKGROUND

           The Reports Consolidation Act of 2000 requires the Inspector General (IG)
           of each Federal agency to annually summarize what he or she considers
           to be the most serious management and performance challenges facing
           the agency and to assess the agency’s progress in addressing those
           challenges.

   OBJECTIVE

           In accordance with the act, the IG at the U.S. Nuclear Regulatory
           Commission (NRC) updated what he considers to be the most serious
           management and performance challenges facing NRC. The IG
           considered the overall work of the Office of the Inspector General (OIG),
           the OIG staff’s general knowledge of agency operations, and other
           relevant information to develop and update his list of management and
           performance challenges. In addition, OIG staff sought input from NRC’s
           Chairman, Commissioners, and management to obtain their views on
           what challenges the agency is facing and what efforts the agency has
           taken or are underway or planned to address previously identified
           management and performance challenges.

   RESULTS IN BRIEF

           The IG identified seven challenges that he considers the most serious
           management and performance challenges facing NRC. The challenges identify
           critical areas or difficult tasks that warrant high-level management attention.

           The 2011 list of challenges reflects two changes from the 2010 list. Prior
           Challenge 1, Protection of nuclear material used for civilian purposes, was
           reworded to Oversight of nuclear material used for civilian purposes. This
           change was made to more accurately describe NRC’s regulatory oversight role
           relative to nuclear material as NRC does not directly protect nuclear material,
           but provides oversight of licensees who are charged to protect the material.
           Prior Challenge 3, Ability to modify regulatory processes to meet a changing
           environment, to include the licensing of new nuclear facilities, was reworded to


                                                i
  Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

          reflect changing economic conditions for new facility construction, as well as
          ongoing efforts to evaluate post-Fukushima Dai-ichi lessons learned for NRC’s
          oversight of currently operating facilities. Current Challenge now 3 reads Ability
          to modify regulatory processes to meet a changing environment in the oversight
          of nuclear facilities.

          The following chart provides an overview of the seven most serious
          management and performance challenges as of October 1, 2011.


Most Serious Management and Performance Challenges Facing the Nuclear
Regulatory Commission as of October 1, 2011*
(as identified by the Inspector General)

Challenge 1         Oversight of nuclear material used for civilian purposes.

Challenge 2         Managing information to balance security with openness and
                    accountability.

Challenge 3         Ability to modify regulatory processes to meet a changing
                    environment in the oversight of nuclear facilities.

Challenge 4         Oversight of radiological waste.

Challenge 5         Implementation of information technology and information
                    security measures.

Challenge 6         Administration of all aspects of financial management and
                    procurement.

Challenge 7         Managing human capital.



*The most serious management and performance challenges are not
ranked in any order of importance.




                                               ii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CONCLUSION

        The seven challenges contained in this report are distinct, yet
        interdependent relative to the accomplishment of NRC’s mission. For
        example, the challenge of managing human capital affects all other
        management and performance challenges.

        The agency’s continued progress in taking actions to address the
        challenges presented should facilitate achieving the agency’s mission and
        goals.




                                            iii
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




ABBREVIATIONS AND ACRONYMS


           ADSA             Associate Directorate for Strategic Acquisition

           ASLB             Atomic Safety Licensing Board

           CUI              controlled unclassified information

           DOE              U.S. Department of Energy

           FAIMIS           Financial Accounting and Integrated Management
                            Information System

           GALL             Generic Aging Lessons Learned

           IG               Inspector General

           ITAAC            inspections, tests, analyses, and acceptance criteria

           NRC              U.S. Nuclear Regulatory Commission

           OIG              Office of the Inspector General

           3WFN             Three White Flint North




                                               iv
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYMS .................................................................. iv

    I. BACKGROUND .............................................................................................. 1

    II. OBJECTIVE .................................................................................................... 1

    III. EVALUATION RESULTS ................................................................................ 2


    Challenge 1          Oversight of nuclear material used for civilian
                         purposes....................................................................................... 5

    Challenge 2          Managing information to balance security with
                         openness and accountability ...................................................... 10

    Challenge 3          Ability to modify regulatory processes to meet a
                         changing environment in the oversight of nuclear facilities ........ 13

    Challenge 4          Oversight of radiological waste................................................... 19

    Challenge 5          Implementation of information technology and
                         information security measures.................................................... 22

    Challenge 6          Administration of all aspects of financial
                         management and procurement .................................................. 25

    Challenge 7          Managing human capital ............................................................ 31


    IV. CONCLUSION .............................................................................................. 34


    APPENDIX

    SCOPE AND METHODOLOGY ......................................................................... 35




                                                        v
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




I.    BACKGROUND

              On January 24, 2000, Congress enacted the Reports Consolidation Act of
              2000 (Reports Act), requiring Federal agencies to provide financial and
              performance management information in a more meaningful and useful
              format for Congress, the President, and the public. The Reports Act
              requires the Inspector General (IG) of each Federal agency to annually
              summarize what he or she considers to be the most serious management
              and performance challenges facing the agency and to assess the
              agency’s progress in addressing those challenges.



II.   OBJECTIVE

              In accordance with the Reports Act’s provisions, the U.S. Nuclear
              Regulatory Commission (NRC) IG updated what he considers to be the
              most serious management and performance challenges facing the
              agency. The IG considered the overall work of the Office of the Inspector
              General (OIG), the OIG staff’s general knowledge of agency operations,
              and other relevant information to develop and update his list of
              management and performance challenges.

              In addition, OIG staff sought input from NRC’s Chairman, Commissioners,
              and management to obtain their views on what challenges the agency is
              facing and what efforts the agency has taken or are underway or planned
              to address previously identified management and performance
              challenges.




                                                   1
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



III.   EVALUATION RESULTS

               The NRC’s mission is to license and regulate the Nation’s civilian use of
               byproduct, source, and special nuclear materials to ensure adequate
               protection of public health and safety, promote the common defense and
               security, and protect the environment. Like other Federal agencies, NRC
               faces management and performance challenges in carrying out its
               mission.

Determination of Management and Performance Challenges

               Congress left the determination and threshold of what constitutes a most
               serious management and performance challenge to the discretion of the
               IGs. As a result, the IG applied the following definition in identifying
               challenges:

Serious management and performance challenges are mission critical areas or
programs that have the potential for a perennial weakness or vulnerability that, without
substantial management attention, would seriously impact agency operations or
strategic goals.



               Based on this definition, in 2011, the IG assessed the most serious
               management and performance challenges facing NRC and identified seven
               challenges that he considered most serious. The challenges identify critical
               areas or difficult tasks that warrant high-level management attention. The 2011
               list of challenges reflects two changes from the 2010 list:




                        Prior Challenge 1, Protection of nuclear material used for civilian
                        purposes, was reworded to Oversight of nuclear material used for civilian
                        purposes. This change was made to more accurately describe NRC’s
                        regulatory oversight role relative to nuclear material as NRC does not
                        directly protect nuclear material, but provides oversight of licensees who
                        are charged to protect the material.

                        Prior Challenge 3, Ability to modify regulatory processes to meet a
                        changing environment, to include the licensing of new nuclear facilities,

                                                    2
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 was reworded to reflect changing economic conditions for new facility
                 construction, as well as ongoing efforts to evaluate post-Fukushima
                 Dai-ichi lessons learned for NRC’s oversight of currently operating
                 facilities. Current Challenge 3 now reads Ability to modify regulatory
                 processes to meet a changing environment in the oversight of nuclear
                 facilities.

        The following chart provides an overview of the seven challenges
        identified as most serious. The sections that follow the chart provide more
        detailed descriptions of the challenges, descriptive examples related to the
        challenges, and examples of efforts that the agency has taken or are
        underway or planned to address the challenges.




                                             3
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




Most Serious Management and Performance Challenges Facing the Nuclear
Regulatory Commission as of October 1, 2011*
(as identified by the Inspector General)

Challenge 1       Oversight of nuclear material used for civilian purposes.

Challenge 2       Managing information to balance security with openness and
                  accountability.

Challenge 3       Ability to modify regulatory processes to meet a changing
                  environment in the oversight of nuclear facilities.

Challenge 4       Oversight of radiological waste.

Challenge 5       Implementation of information technology and information
                  security measures.

Challenge 6       Administration of all aspects of financial management and
                  procurement.

Challenge 7       Managing human capital.

*The most serious management and performance challenges are not
ranked in any order of importance.




                                                  4
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 1
Oversight of nuclear material used for civilian purposes.

             NRC is authorized to grant licenses for the possession and use of
             radioactive materials and establish regulations to govern the possession
             and use of those materials.

             NRC’s regulations require that certain material licensees have extensive
             material control and accounting programs as a condition of their licenses.
             All other license applicants (including those requesting authorization to
             possess small quantities of special nuclear materials) must develop and
             implement plans that demonstrate a commitment to accurately control and
             account for radioactive materials.

             NRC may relinquish to States, upon their request, its authority to regulate
             certain radioactive materials and limited quantities of special nuclear
             material. After these States demonstrate that their regulatory programs
             are adequate to protect public health and safety and compatible with
             NRC’s program, the States enter into an agreement assuming this
             regulatory authority from NRC and are called Agreement States.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Implement the National Source Tracking
             System, Web Based Licensing, and the Licensing
             Verification System to ensure the accurate tracking
             and control of byproduct material, especially those NSTS logo. Source: NRC
             materials with the greatest potential to impact public health and safety.

                      Action: Since the National Source Tracking System became
                      operational in December 2008, NRC has continued implementation
                      of and improvements to the system. Version 2.0 was deployed in
                      May 2011. Revisions included functionality improvements
                      designed to broaden system capabilities for all users. NRC is also
                      continuing development of Web-Based Licensing and the License
                      Verification System. Further, NRC is working to integrate these




                                                  5
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                        systems with the National Source Tracking System to license and
                        track source materials under one management mechanism.

                Issue: Ensure that radioactive material is adequately protected to
                preclude its use for malicious purposes.

                        Action: Although NRC initiated a rulemaking to
                        expand the materials tracked in the National
                        Source Tracking System, the decision and
                        potential implementation of that rulemaking was
                        not approved by the Commission. As a result, the
                        system is available to licensees to report
                        transactions involving Code of Conduct1 materials
                        in only categories 1 and 2. NRC has provided
                        licensees with multiple ways of reporting such
                                                                              Code of Conduct.
                        transactions. About 60 percent of transactions are Source:
                        submitted electronically and about 40 percent are     www.iaea.org
                        submitted via facsimile machine, U.S. Postal
                        Service, or e-mail. NRC continues to work on getting more
                        licensees to use the online system and contracted with a local
                        marketing firm to help improve the online use of the system.

                        In addition to collecting information in the National Source Tracking
                        System, NRC launched a pilot inspection program to collect
                        information on self-shielded irradiators and other irradiators. The
                        purpose of the pilot is to assess the need to modify the current
                        inspection program to determine if more frequent inspections would
                        result in greater compliance with security requirements. One
                        radioactive compound used in irradiators that is of particular
                        concern for malicious use is cesium-chloride. The U.S. National
                        Academy of Sciences issued a report emphasizing that
                        replacement technologies be considered for cesium-chloride, a
                        highly dispersible chemical form of the radioactive isotope of
                        Cesium, Cs-137. Cesium-chloride is very soluble in water and

1
  In January 2004, the International Atomic Energy Agency published the Code of Conduct on the Safety
and Security of Radioactive Sources as the standard the international community uses to govern the
safety and security of radioactive materials based on the categorization system. While the International
Atomic Energy Agency classifies sources into five categories, it notes that sources in categories one
through three are designated as varying degrees of dangerous.



                                                    6
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                        easily dispersed in the air and is highly toxic if ingested. Cesium-
                        chloride, used in nuclear medicine, research, and industry, is
                        typically double sealed and contained in a stainless steel capsule
                        for safety reasons. In light of the views on alternative technologies
                        as a replacement, NRC convened public workshops to seek input
                        from various stakeholders. NRC also commissioned a study by its
                        Advisory Committee on the Medical Uses of Isotopes. After
                        carefully considering all these inputs, as well as the NRC’s own
                        internal analysis, the agency concluded that near-term replacement
                        of cesium-chloride devices was not practicable, and would be
                        detrimental to the delivery of medical care and research. As a
                        result, NRC updated its policy statement, which still allows for the
                        safe and secure use of cesium chloride and further states that the
                        development and use of alternative forms of the material are
                        prudent but not required.

                Issue: Ensure the appropriate oversight of uranium recovery facilities.

                        Action: NRC maintains a
                        regulatory oversight program
                        with respect to licensing and
                        inspection of uranium
                        recovery facilities to ensure
                        that licensees conduct
                        activities safely and in an
                        environmentally protective
                        manner. NRC regulates six in Crow Butte In Situ Recovery Facility.
                        situ2 recovery facilities,3 one    Source: NRC Web site

                        conventional mill, and 11 mill sites undergoing decommissioning in
                        the Western States.

                        Additionally, NRC works with the Department of Energy (DOE)
                        regarding abandoned uranium mill tailing sites that are covered by
                        Title I of the Uranium Mill tailings Radiation Control Act of 1978.



2
  In situ recovery is one of the two primary extraction methods that are currently used to obtain uranium
from underground. These facilities recover uranium from low-grade ores where other mining and milling
methods may be too expensive or environmentally disruptive.
3
  One of the five in situ recovery facilities has been in litigation for 10 years and there has been no
construction at that site; therefore, NRC’s regulatory oversight is minimal.

                                                    7
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Under a general license from NRC, DOE is responsible for cleanup
                 and remediation of these sites.

        Issue: Ensure reliable accounting of special nuclear materials in the NRC
        and DOE jointly managed Nuclear Materials Management and Safeguards
        System.

                 Action: NRC has been working for over 8 years to resolve issues
                 of material control and accounting in response to OIG’s 2003
                 report, OIG-03-A-15, Audit of NRC’s Regulatory Oversight of
                 Special Nuclear Materials. On February 7, 2008, NRC approved a
                 final rule that amended its regulations to improve the accuracy of
                 material inventory information maintained in the Nuclear Materials
                 Management and Safeguards System. The amendments, effective
                 January 1, 2009, lower the threshold of reportable quantities of
                 special nuclear materials and certain source materials to the
                 Nuclear Materials Management and Safeguards System, modify
                 the types and timing of submittals to the system, and require
                 licensees to reconcile any material inventory discrepancies that
                 NRC identifies in the system database. NRC reports that it has
                 implemented the rule change requiring improved reporting and
                 reconciliation for licensees reporting to the Nuclear Materials
                 Management and Safeguards System, and continues to verify the
                 adequacy of material control and accounting of special nuclear
                 material at NRC licensed facilities. Additionally, the Commission
                 has directed the NRC staff to revise and consolidate current
                 material control and accounting regulations into Title 10, Code of
                 Federal Regulations, Part 74. The proposed rule is scheduled to
                 be published for public comment in late 2011. The final rule and
                 associated guidance is scheduled to be completed by August 30,
                 2012.




                                             8
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

        Issue: Ensure that Agreement State programs are adequate to protect
        public health and safety and the
        environment, and are compatible with
        NRC’s program.

                 Action: NRC conducts 8 to 10
                 reviews per year of Agreement
                 State radioactive materials
                 programs and NRC’s regional
                 programs under the agency’s Integrated
                                                                 Agreement and Non-
                 Materials Performance Evaluation Program.       Agreement States.
                 Furthermore, NRC completed a self-              Source: NRC Web site
                 assessment of the program in July 2010. NRC management
                 endorsed the self-assessment report and the agency initiated
                 actions to address the report’s 15 recommendations.

        Issue: Ensure appropriate oversight of nuclear materials used in
        medicine.

                 Action: The agency is holding a series of public workshops to
                 address concerns regarding the continued disagreement in the
                 medical community about the correct approach for a definition of a
                 medical event. During the workshops, NRC will solicit stakeholder
                 input on topics associated with the medical event definition,
                 including sections involving reporting and notifications of medical
                 events for permanent implant brachytherapy and other medical
                 issues that are currently being considered for rulemaking.

                 NRC is engaged in several activities to address concerns about
                 doses given to members of the public from patients who have been
                 treated with radioactive isotopes. For example, the agency
                 expanded its guidance requirement for doctors to include advice
                 that patients are strongly discouraged from checking into hotels
                 immediately following treatment. Additionally, NRC staff are
                 examining whether there are gaps in the available data regarding
                 doses being received by members of the public due to the release
                 of patients treated with medical isotopes, as well as how the
                 agency could go about collecting additional data, if needed.




                                             9
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

CHALLENGE 2
Managing information to balance security with openness and accountability.

             NRC employees create and work with a significant amount of sensitive
             information that needs to be protected. Such information includes
             sensitive unclassified information and classified national security
             information contained in written documents and various electronic
             databases.

             Based on continuing national security threats, NRC continually
             reexamines its information management policies and procedures. NRC
             faces the challenge of attempting to balance the need to protect sensitive
             information from inappropriate disclosure with the agency’s goal of
             openness in its regulatory processes. Over the past year, NRC has made
             various efforts to improve public access to information while protecting
             sensitive information, including security-related information, from
             inappropriate disclosure.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Respond to requests for information and provide external
             stakeholders with clear and accurate information about regulatory
             programs and facilitate public participation in the regulatory process to
             ensure openness and accountability.

                      Action: NRC has published datasets of regulatory information
                      (e.g., inspection reports, event reports) on the Data.Gov Web site
                      per the Administration’s Open Government initiative. This initiative
                      is intended to increase public knowledge and promote transparency
                      by providing the public with access to machine-readable
                      Government information for use in research and analysis.




                                                 10
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

        Issue: Manage information in accordance with new Federal Government
        policies for designating, marking, safeguarding, and disseminating
        controlled unclassified information (CUI).

                 Action: The agency participated in working groups with the
                 National Archives and Records Administration’s CUI Office to
                 develop a CUI Executive Order and Implementing Directive. NRC
                 has submitted its catalog of proposed CUI categories,
                 subcategories, and markings to the National Archives and Records
                 Administration.

        Issue: Ensure that sensitive information is handled in accordance with
        agency policies and procedures for public disclosure.

                 Action: NRC ensured that Privacy Act compliance activities were
                 completed, such as Privacy Impact Assessments, requirements of
                 the Office of Management and Budget Circular A-130, and Office of
                 Management and Budget requirements for personal identifiable
                 information.

                 Action: In response to recommendations in OIG’s Audit of the
                 Shared S Drive (OIG-11-A-15), the agency will revise its Personally
                 Identifiable Information and information security training, provide
                 agency information technology coordinators with role-based
                 training, develop CUI policies and guidance for storing and
                 protecting CUI in agency shared drives, and implement procedures
                 for quality assurance checks following network upgrades to ensure
                 that access controls are preserved in shared network drives that
                 process documents containing CUI.

        Issue: Review and strengthen programs to protect licensee, vendor, and
        Government-owned assets (e.g., facility designs, technology descriptions,
        dual use material and components, classified information) from
        compromise by foreign sources and industrial espionage and increase
        awareness of the relationship of these assets to the Nation’s economic
        and industrial base and energy infrastructure.




                                            11
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Action: NRC has recognized the need to ensure technological
                 data involving licensee, vendor, and Government-owned assets is
                 fully protected against potential loss to adversaries. NRC has
                 promulgated orders that provide additional security measures for
                 the protection of these assets.

                 NRC employees and contractors are required to have a baseline
                 level of security awareness upon entry on duty and a security
                 clearance. Some, depending on their job and involvement in the
                 creation and use of protected information, are provided various
                 additional "role based" training programs, such as classifier's
                 training, training for administrative personnel, declassification
                 training, Secret Internet Protocol Router Network users training,
                 and Sensitive Compartmented Information access training. The
                 training is layered, targeted, and recurring for those with specific
                 responsibilities for various types of protected information.

                 In addition, NRC has increased its information security awareness
                 by issuing various agencywide announcements informing staff of
                 methods used to target NRC information systems and the
                 corresponding need for employees to heighten their computer
                 security information protection posture.

        Issue: Technologies and materials, which NRC regulates, have potential
        intelligence value to foreign states and non-state actors from either an
        intelligence or a counterproliferation, counterterrorism, or economic
        espionage perspective and should be protected from potential
        compromise. Further, there is the potential that NRC employees have
        knowledge and access to information that may be of interest to foreign
        powers and non-state actors.

                 Action: NRC has begun the process of developing programmatic
                 efforts aimed at identifying potential threats and vulnerabilities that
                 exist in its programs and operations. Such efforts should continue
                 and receive senior leadership support.




                                            12
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 3
Ability to modify regulatory processes to meet a changing environment in the
oversight of nuclear facilities.

             NRC faces the challenge of maintaining its core regulatory programs while
             adapting to changes in its regulatory environment. NRC must address a
             steady interest in licensing and constructing new nuclear power plants to
             meet the Nation’s increasing demands for energy production. As of May
             2011, NRC had received 18 Combined Operating License applications, 12
             of which NRC was actively reviewing. Moreover, the agency is reviewing
             three standard design certifications and two certification amendments, and
             expects to receive five new advanced design certification applications
             through 2013.

             While responding to the emerging demands associated with licensing and
             regulating new reactors, NRC must maintain focus and effectively carry
             out its current regulatory responsibilities, such as inspections of the
             current fleet of operating nuclear reactors and fuel cycle facilities. NRC
             intends to increase its safety focus on licensing and oversight activities
             through risk-informed and performance-based regulation.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             New Facilities

             Issue: Implement the new Construction Inspection Program.

                      Risk-inform Construction Inspection Program activities to ensure
                      the safe operation of newly constructed nuclear facilities.

                      Ensure that the NRC staff has the necessary knowledge and skill to
                      successfully implement the program.

                      Action: NRC has developed a Construction Inspection Program in
                      accordance with Title 10, Code of Federal Regulations, Part 52.
                      New inspections, tests, analyses, and acceptance criteria (ITAAC)
                      have been integrated into the Part 52 licensing process to create a
                      “design-specific, pre-approved set of performance standards that

                                                 13
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 the licensee must meet to the NRC’s satisfaction.” While the
                 agency is still developing ITAAC review processes and procedures,
                 it has conducted an ITAAC demonstration project to simulate and
                 test numerous aspects of the ITAAC inspection, closure, and
                 verification process. The agency also created the Center for
                 Construction
                 Inspection in Region
                 II. The Center’s
                 mission is to provide
                 assurance in the
                 safety of future
                 operations at new
                 nuclear facilities by
                 ensuring that
                 licensees and
                 applicants construct the        NRC Conducts Inspections.
                 facilities according to         Source: NRC Web site
                 approved design criteria,
                 using appropriate practices and quality materials.

                 NRC continues to make improvements to its construction inspection
                 and quality assurance practices consistent with OIG
                 recommendations. For example, during Fiscal Year 2011, the
                 agency completed revisions to NRO-REG-112, “New Reactor
                 Construction Experience Program,” to improve the screening of
                 construction operating experience for the purposes of documenting
                 lessons learned.

        Issue: As the public’s demand for new energy sources continues, NRC
        must ensure that the process for reviewing applications for new facilities
        focuses on safety and effectiveness.

                 Action: NRC’s review of Combined Operating License applications
                 has been complicated because some applicants are revising the
                 reactor design currently under review. The agency staff is working
                 with applicants to resolve issues related to design, siting, and
                 schedule modifications using a variety of interactions. These
                 include pre-application audits, site visits, reviews of
                 topical/technical reports, public meetings, and Design-Centered
                 Working Group meetings.


                                            14
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 NRC is also undertaking pre-application interactions with vendors
                 of advanced and small modular reactor designs. To facilitate the
                 licensing of new reactor designs that differ from the current
                 generation of large light water reactor facilities, the NRC staff seeks
                 to resolve key safety and licensing issues and develop a regulatory
                 infrastructure to support licensing review of these unique reactor
                 designs. The staff has identified several potential policy and
                 technical issues associated with licensing small light water reactor
                 and non-light water reactor designs.

        Issue: As the sources of manufactured reactor components become
        more globalized, NRC must ensure its regulations and oversight activities
        appropriately address the challenges associated with licensees procuring
        components from suppliers located outside of the United States.

                 Action: NRC continues to make improvements to its vendor
                 oversight activities consistent with OIG recommendations. In late
                 December 2010, the NRC staff began developing an agencywide
                 approach to address the threat of counterfeit and fraudulent
                 components. Furthermore, in Fiscal Year 2011, NRC updated
                 vendor inspection procedures to establish expectations that
                 translators and interpreters will be used as necessary to ensure
                 that the use of foreign-language documents or communication with
                 foreign-language speakers does not degrade the quality of the
                 inspection. NRC also participates in the Multinational Design
                 Evaluation Program, which is a multinational initiative taken by
                 national safety authorities to develop approaches to leverage the
                 resources and knowledge of the national regulatory authorities who
                 will be tasked with the review of new reactor power plant designs.

        Existing Fleet

        Issue: Ensure NRC maintains the ability to effectively review licensee
        applications for license renewals and power uprates submitted by industry
        in response to the Nation’s increasing demands for energy production.

                 Action: For planning purposes, NRC continues to work with plant
                 licensees to develop a schedule of anticipated license amendment
                 requests for license renewals and power uprates. The agency has



                                            15
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 also implemented a number of recommendations to improve the
                 license renewal review and power uprate processes to include
                 closer management oversight of report-writing standards and
                 technical reviewer and project manager training.

                 As NRC has gained experience with Inspection Procedure 71003,
                 “Post-Approval Site Inspection for License Renewal,” during recent
                 years, the staff provided an updated “Frequently Asked Questions”
                 document on the NRC Web site in March 2011. Furthermore, the
                 staff updated a major license renewal document, NUREG-1801,
                 “Generic Aging Lessons Learned (GALL) Report,” in December
                 2010.

        Issue: Respond to a heightened public focus on license renewals
        resulting in contested hearings.

                 Action: NRC has open dialogs with the industry, licensees, and
                 stakeholders. The public, in general, is also encouraged to
                 participate in the process through public meetings, and public
                 comment periods on rules, renewal guidance, and other
                 documents. For example, NRC routinely requests public comment
                 on supplements of NUREG-1437, "License Renewal Generic
                 Environmental Impact Statement." In addition, the public has an
                 opportunity to request a formal adjudicatory hearing if that party
                 would be adversely affected by the renewal.

        Issue: Ensure the ability to identify emerging operating and safety issues
        at all plants, including issues associated with license renewal and power
        uprate; consistently apply regulatory and review changes in response to
        these emerging issues across the existing fleet of reactors.




                                            16
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Action: NRC continues to evaluate the need to make changes to
                 its regulatory programs based on
                 emerging operational and safety issues
                 related to license renewal and power
                 uprate. For example, after the June
                 2010 Groundwater Contamination Task
                 Force report was issued with
                 recommendations for the agency to
                 strengthen its response to groundwater
                 incidents, the staff initiated, and plans to
                 continue, efforts to work with consensus
                 standards organizations to have certain
                 provisions related to inspecting and
                 maintaining buried piping incorporated       Cover from NRC’s Post-Fukishima
                 into applicable industry standards.          Accident Safety Report.
                                                                      Source: NRC Web site

                 In March 2011, after an earthquake and
                 tsunami struck Japan affecting several reactors at the Fukushima
                 Dai-ichi site, NRC activated its 24-hour Emergency Operations
                 Center to monitor and analyze events at the nuclear plants in
                 Japan. Soon thereafter, NRC established the senior-level “Near-
                 Term Task Force Review of Insights from the Fukushima Dai-ichi
                 Accident” to conduct a methodical and systematic review of the
                 NRC’s processes and regulations to determine whether the agency
                 should make additional improvements to its regulatory system and
                 to make recommendations to the Commission for its policy
                 direction. In 2011, the Task Force delivered a report to the
                 Commission with 12 recommendations for both short- and long-
                 term changes to NRC’s oversight of nuclear reactors. These
                 recommendations focused on issues such as loss of electrical
                 power, spent fuel pools, natural disaster preparedness and
                 recovery, and NRC’s overall regulatory approach to oversight.
                 NRC’s next steps are to determine how best to implement the Task
                 Force recommendations, continue to evaluate new information
                 coming from Fukushima Dai-ichi, and identify, review, and address
                 lessons learned regarding the agency’s and the Federal
                 Government’s response regarding the




                                            17
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Fukushima Dai-ichi event, and balance these emerging efforts
                 against ongoing work.

        Issue: Establish and maintain effective, stable, and predictable regulatory
        programs or policies for all programs.

                 Action: NRC continues to interface with stakeholders, develop
                 regulatory policy, update rules and technical guidance, provide
                 technical lead and management for the Reactor Oversight Process,
                 and support the development of programmatic changes when
                 needed. Additionally, the Reactor Oversight Process features an
                 annual assessment process which is used to revise the program as
                 necessary.




                                            18
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 4
Oversight of radiological waste.

                      NRC regulates spent nuclear fuel generated from commercial
                      nuclear power reactors, referred to as high-level radioactive waste.
                      NRC faces significant issues involving the uncertainty of Yucca
                      Mountain as the Nation’s repository for storing high-level
                      radioactive waste. Other challenges in the high-level waste area
                      include the interim storage of spent nuclear fuel, certification of
                      storage and transportation casks, and the oversight of
                      decommissioned reactors and other nuclear sites.

                      Additionally, the amount of low-level waste continues to grow;
                      however, no new disposal facilities have been built since the 1980s,
                      and unresolved issues will increase as access to disposal facilities
                      becomes more limited given facility closures and restricted
                      accessibility.

                      The issues related to this challenge and the agency’s actions to
                      address each issue include the following:

             Issue: Address issues regarding DOE’s March 3, 2010, motion to
             withdraw its license application to construct a high-level radioactive waste
             repository at Yucca Mountain.

                      Action: NRC stopped its review of DOE’s high-level radioactive
                      waste repository application despite a June 2010 determination by
                      the NRC’s Atomic Safety and Licensing Board (ASLB) that denied
                      DOE’s motion to withdraw the application. The ASLB grounded its
                      decision in its interpretation of the Nuclear Waste Policy Act,
                      reasoning that Congress directed DOE to file the application and
                      NRC to consider the application and issue a decision based on its
                      technical merits. On September 9, 2011, the Commission issued
                      an Order to the ASLB stating that it was evenly split on whether to
                      uphold or overturn the ASLB’s decision. The Order also directed
                      the ASLB to “Complete all adjudicatory activities by the end of the
                      fiscal year [September 30, 2011].”




                                                 19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Going forward, the agency will continue to implement oversight
                 programs in regard to radiological waste at sites across the Nation.

        Issue: Maintaining flexibility to address regulatory challenges related to
        the management of spent nuclear fuel and high-level waste.

                 Action: NRC developed a Plan for Integrating Spent Nuclear Fuel
                 Regulatory Activities to address future regulatory challenges related
                 to the management of spent nuclear fuel and high-level waste.
                 This plan is intended to assist NRC in addressing ongoing revisions
                 to the national strategy for ensuring public health
                 and safety and the environment in managing
                 spent nuclear fuel and high-level waste. By
                 coordinating the approach for regulation of spent
                 nuclear fuel and high-level waste storage,           Yucca Mountain Crest –
                                                                      North View. Source:
                 potential reprocessing, transportation, and          Bing Images
                 disposal, NRC can improve the efficiency and
                 effectiveness of NRC regulatory processes and provide stability
                 and predictability for stakeholders in a dynamic environment.

        Issue: Address increasing quantities of high-level radiological waste
        requiring interim storage or permanent disposal.

                 Action: To provide technically based
                 safety reviews of license amendment
                 requests to allow credit for the
                 reduction of reactivity due to reactor
                 exposure in spent nuclear fuel, the
                 NRC is conducting a study on the
                 application of burnup credit in light
                 water reactors. The study will address Commercial Spent Fuel Pool.
                                                             Source: NRC NUREG-1925, Rev 1
                 storage in both spent fuel pools and
                 casks, as well as transportation considerations. The results of the
                 study should provide NRC with an independent methodology for the
                 application of burnup credit in spent fuel criticality applications.

                 NRC also developed and implemented a decisionmaking tool for
                 adopting a graded approach in terms of the depth and rigor of
                 review of applications for certificates of compliance for dry cask
                 waste storage systems. NRC used staff experience and risk


                                            20
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 insights resulting from a pilot probabilistic risk analysis for dry cask
                 storage systems to build the decisionmaking tool.

        Issue: Oversight of low-level waste storage and disposal, including low-
        level radioactive waste disposal sites. All current low-level waste disposal
        sites are regulated by Agreement States.

                 Action: NRC is working to improve the regulatory framework for
                 low-level waste, used by both NRC and Agreements States.

                 Following are examples of NRC activities:

                         NRC completed the Regulatory Basis and most of the
                         proposed rulemaking for requiring a site-specific
                         performance assessment for low level waste disposal sites
                         to demonstrate compliance with the performance objectives
                         in the Code of Federal Regulations.

                         NRC also held public meetings on
                         issues related to low-level waste.

                         NRC issued a summary of existing
                         guidance to Agreement States for            Low-Level Waste
                         reviewing large-scale low-level radioactive Containers.
                                                                     Bing Images
                                                                                 Source:

                         waste blending proposals. The summary
                         of current NRC policy and guidance should assist the
                         Agreement States in making informed decisions until formal
                         rulemaking and guidance is completed.

        Issue: Oversight of nuclear waste issues associated with the
        decommissioning and cleanup of nuclear reactor sites and other facilities.

                 Action: NRC oversees 10 power reactors, 2 early demonstration
                 reactors, and 12 research and test reactors in safe storage or
                 currently undergoing decommissioning. NRC’s regional offices
                 conduct periodic inspections to include reviews of decommissioning
                 nuclear waste management.




                                            21
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 5
Implementation of information technology and information security measures.

             NRC needs to continue upgrading and modernizing its information
             technology and security capabilities both for employees and for public
             access to the regulatory process. Recognizing the need to modernize, the
             Office of Information Services established goals to improve the
             productivity, efficiency, and effectiveness of agency programs and
             operations, and enhance the use of information for all users inside and
             outside the agency. NRC also needs to ensure that system security
             controls are in place to protect the agency’s information systems against
             misuse.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Upgrade and manage information technology activities to improve
             the productivity, efficiency, and effectiveness of agency programs and
             operations.

                      Action: NRC continued to work with its business system owners
                      on analysis of legacy applications for future technology
                      modernization, including development of a funding strategy.

                      Action: The agency awarded a new Information Technology
                      Infrastructure and Support Services contract that will replace the
                      current contract and vendor. The agency expects this will provide a
                      more flexible vehicle for providing information technology services.

                      Action: An agencywide Virtual Meeting capability was put into
                      place contractually for Fiscal Year 2012.

                      Action: All users received the full version of Adobe Acrobat
                      Professional. This added cost and management efficiencies by
                      consolidating support and licensing of the application.




                                                 22
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Action: NRC coordinated its planning for the new Three White
                 Flint North (3WFN) headquarters building to ensure efficient, cost-
                 effective, and future-thinking information technology infrastructure
                 requirements are understood and included.

        Issue: Provide laptop computers with enhanced functionality, security,
        and support.

                 Action: NRC completed the implementation of the base laptop
                 program, which provides several enabling technologies for mobile
                 users and supports the capability to “work from anywhere.” This
                 included the implementation and/or enhancement of the following
                 services: mobile desktops, loaner laptops, loaner broadband cards,
                 and Blackberry tethering.

        Issue: Ensure that information systems and assets are protected.

                 Action: NRC has begun to identify and explore additional options
                 (e.g., mobile devices, smart phones, and tablets) to provide agency
                 staff with secure, remote access to agency resources.

                 Action: NRC has continued to make improvements to the Security
                 Operations Center adding tools for centralized logging and
                 continuous monitoring.

                 Action: Although NRC established an agencywide cyber security
                 situational awareness capability to enhance visibility of and
                 response to emerging threats to NRC information resources, the
                 agency has yet to fully deploy purchased cyber tools that could
                 strengthen its ability to identify, mitigate, and reduce threats against
                 its information systems infrastructure. Effective implementation and
                 coordination among cognizant NRC offices with internal and
                 external response responsibilities to potential network intrusion
                 attacks provide NRC with enhanced capabilities to respond to such
                 threats.




                                            23
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Action: The agency has issued Homeland Security Presidential
                 Directive-12 identification cards to NRC staff and contractors, and
                 Homeland Security Presidential Directive-12 compliant security
                 equipment has been installed in all NRC facilities.

        Issue: Ensure that plans for a cyber security inspection program are
        developed and implemented.

                 Action: The staff plans to develop an inspection procedure for
                 conducting cyber security inspections at nuclear power plants and
                 hold training for NRC cyber security inspectors. The inspections
                 are planned to be conducted between calendar years 2012 and
                 2016.




                                            24
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 6

Administration of all aspects of financial management and procurement.

             NRC management is responsible for meeting the objectives of several
             statutes, including the Federal Managers’ Financial Integrity Act. This act
             mandates that NRC establish controls that reasonably ensure that
             (1) obligations and costs comply with applicable law; (2) assets are
             safeguarded against waste, loss, unauthorized use, or misappropriation;
             and (3) revenues and expenditures are properly recorded and accounted
             for. This act encompasses program operational, and administrative areas,
             as well as accounting and financial management.

             NRC’s procurement of goods and services must be made with an aim to
             achieve the best value for the agency’s dollars in a timely manner.
             Agency policy provides that NRC’s procurement of goods and services
             supports the agency’s mission; be planned, awarded, and administered
             efficiently and effectively; and be consistent with sound business practices
             and contracting principles. Agency efforts are currently focused on the
             goals of achieving (1) a 21st century acquisition program that uses state-
             of-the-art acquisition methodologies for acquisition planning, execution,
             management, and closeout; and (2) an acquisition program that fully
             integrates with agencywide program and financial planning and execution.
             The issues related to this challenge and the agency’s actions to address
             each issue are as follows:

             Financial Management

             Issue: Improve the performance and functionality of the agency’s new
             core financial system.

                      Action: The agency deployed the Financial Accounting and
                      Integrated Management Information System (FAIMIS) on
                      October 1, 2010. FAIMIS replaced five core financial systems with
                      a single Web-based commercial-off-the-shelf software system.
                      While the agency deployed the system as scheduled, there have
                      been a number of performance and functionality issues.




                                                 25
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Specifically:
                        Delays in issuing license fee bills.
                        Frequent system outages prevent staff from entering data
                        into the system in a timely manner.
                        Reports used by agency staff to reconcile budget and
                        accounting information are untimely and difficult to interpret.

                 NRC anticipated initial operational challenges characteristic of new
                 enterprise-wide system deployments. NRC has employed change
                 management and organizational communication strategies to try to
                 reduce the impact of these challenges. For example, the agency
                 has created workgroups to address user concerns, monitored
                 issues through its help desk, and provided additional system
                 training to staff.

        Issue: Find a new service provider to host FAIMIS.

                 Action: The Department of Interior National Business Center, the
                 current host, notified the agency that after September 30, 2012, it
                 would no longer host FAIMIS. The agency is working to find a new
                 service provider before the beginning of Fiscal Year 2013.

        Issue: Upgrade the Time and Labor system to a modern, Web-based,
        user-friendly system.

                 Action: The agency delayed implementation of plans to upgrade
                 the Time and Labor system in July 2010 because of performance
                 issues identified during production testing. In September 2010, the
                 agency created an Integrated Project Team to perform a technical
                 evaluation and develop a plan for launching a reliable system. The
                 upgrade would provide a modern, Web-enabled version of the
                 existing PeopleSoft Time and Labor software. While this is an
                 upgrade in versions, there are significant differences between the
                 two versions that make the effort similar to a new implementation.
                 The upgraded system will provide increased security, is employee
                 managed, paperless and allows for electronic workflow and
                 electronic signature approval.




                                            26
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Action: The Integrated Project Team took a three-phased
                 approach to implement the new module.

                 Phase One: Included analyzing and testing application
                 recommendations, and rebuilding the infrastructure in all
                 environments.

                 Phase Two: Included testing the system for functionality and
                 performance in the rebuilt infrastructure.

                 Phase Three: Includes user acceptance testing and employee
                 training.

                 Instructor-led and Web-based training is scheduled to be available
                 for NRC employees in September 2011. The agency developed a
                 SharePoint site to provide a central location for sharing information
                 with NRC employees on progress and for addressing employee
                 questions or issues. The Office of the Chief Financial Officer
                 provided periodic updates on the modernization progress. Present
                 plans call for implementation of the new system on
                 October 23, 2011, in time for processing pay period number 23.

        Issue: Respond to the flat or declining budget environment.

                 Action: As with many other Federal agencies, NRC has had to
                 meet its mission in the face of substantial budget cuts that have
                 flattened the agency’s budget. NRC reorganized its budget
                 structure in an effort to improve transparency and target areas of
                 inefficiencies. NRC also established a Transforming Assets into
                 Business Solutions Task Force to analyze and assess NRC
                 business practices and develop cost effective, and cost conscious
                 solutions to manage overhead costs. The task force developed
                 recommendations, which included streamlining the budget
                 formulation process, centralizing human resource management
                 functions, improving contract management, and standardizing
                 information technology solutions.




                                            27
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

        Procurement

        Issue: Respond to Commission direction to implement a 21st century
        acquisition program that will consider broader agency programmatic
        requirements with a more integrated and informed acquisition planning
        approach that leverages agency resources, programmatic requirements,
        and contract dollars.

                 Action: In March 2011, the agency established the Associate
                 Directorate for Strategic Acquisition (ADSA) within the Office of
                 Administration to develop and implement a strategic acquisition
                 program for the agency to address identified process, automation,
                 and workforce skill issues.

                 Action: ADSA is responsible for procuring and implementing an
                 acquisition module that is compatible with FAIMIS. The acquisition
                 module will standardize and centralize acquisition processes
                 agencywide and automate lifecycle procurement activities for
                 commercial contracts, DOE laboratory agreements, interagency
                 agreements, financial assistance awards, and purchase card
                 transactions within a single business application solution. The
                 agency plans to implement the acquisition module in two phases.
                 However, due to budget constraints and Commission concern over
                 NRC’s recent experience with deployment of the FAIMIS Core
                 Financial system, the agency has been unable to finalize an
                 implementation schedule for the acquisition module.

                 Action: ADSA staff completed a plan of action designed to
                 economize, streamline, and standardize the NRC procurement
                 process through the application of enterprise spend management
                 principles.

                 Action: NRC recently completed its first comprehensive spend-
                 analysis and identified 10 major portfolio categories as candidates
                 for savings through enterprise sourcing efforts. An ongoing OIG
                 evaluation is assessing NRC’s contract award process.

        Issue: Implement improvements in the agency’s procedures for awarding,
        negotiating, and managing agreements with DOE laboratories.



                                            28
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                       Action: In response to an OIG audit,4 NRC is in the process of
                       updating Management Directive 11.7, NRC Procedures for
                       Placement and Monitoring of Work with the U.S. Department of
                       Energy. Staff has also issued interim guidance for enhanced
                       oversight of the process for placing work with DOE. The interim
                       guidance:

                       1. Addresses the need for offices to consider the use of
                          commercial sources through market research as part of the
                          decisionmaking process in choosing to use a laboratory and
                          fully document the results/conclusions in DOE laboratory
                          agreement files.

                       2. Provides clarification for offices regarding the requirement to
                          fully document the rationale and basis for using a DOE
                          laboratory.

                       3. Addresses the requirement for when offices shall submit Source
                          Selection Justifications to the Division of Contracts for
                          independent review to ensure that commercial sources are fully
                          considered.

                       4. Identifies milestones for more robust market research
                          requirements prior to awarding DOE laboratory agreements.

              Issuance of this interim guidance provides an opportunity for offices to
              work with the Office of Administration to collaborate on updating and
              incorporating revisions to Management Directive 11.7.




4
 OIG-10-A-12, Audit of NRC’s Management of Agreements with Department of Energy Laboratories
(April 23, 2010)

                                                  29
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 Issue: Manage the agency’s expanded grant program to ensure that
                 grants are awarded in a timely manner and NRC personnel who award
                 and administer grants are provided appropriate training.

                          Action: In response to recommendations from an OIG audit
                          report,5 the staff established requirements for the content and
                          organization of NRC grant files. Staff also developed a grants
                          SharePoint site, developed a grants training plan, awarded a
                          contract for off-the-shelf grants training for the Division of Contracts
                          and program office staff, and implemented an internal quality
                          control process to assure regulatory compliance.

                          Action: The staff updated Management Directive 11.6, Financial
                          Assistance Program, which was approved by the Executive Director
                          for Operations on September 16, 2011. The staff is also preparing
                          a Grants Specialist Desk Guide for NRC Division of Contracts and
                          program office staff. The purpose of the desk guide is to ensure
                          consistency in the grants process.




5
    “OIG-09-A-16, Audit of NRC’s Grant Management Program (September 29, 2009)

                                                     30
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 7

Managing human capital.

             For several years, NRC experienced significant growth resulting from an
             increased interest in nuclear power. As of July 25, 2011, NRC’s workforce
             is 3,961 staff and it is unlikely that NRC will see any growth over the next
             several years. Going forward, NRC will need to support increasing
             mandates within a zero-growth or declining budget environment. NRC
             must institutionalize an approach that focuses on its mission of protecting
             the public health and safety while remaining mindful of staff needs. To
             manage human capital effectively, while continuing to accomplish the
             agency’s mission, NRC must continue to implement initiatives in the
             following areas:

                  Reducing inefficiencies and overhead by centralizing and streamlining
                  processes while maintaining or improving the level of customer
                  service.

                  Space planning.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: NRC must respond to the flat or declining budget environment.

                      Action: As NRC transitions from a period of aggressive growth to
                      a nearly flat budget, it is critical that the agency has the most
                      effective organizational structure possible. Despite the current
                      budget pressures on the agency’s staffing levels, NRC must
                      continue to look toward the future. Salaries and benefits are a
                      significant driver of the budget and influence how much resources
                      the agency has available for such items as fixed costs, contract
                      support, and travel. To help the agency reshape the workforce,
                      NRC plans to ask the Office of Personnel Management and the
                      Office of Management and Budget for authority to offer some
                      eligible employees in specific situations an opportunity to request
                      voluntary “buy outs” and early retirements. Some of these options



                                                 31
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                 are being offered because of changes in technology and the way
                 the agency does business. If approved, these options would be
                 offered some time in the first quarter of Fiscal Year 2012. In
                 addition, the agency has refocused its efforts to manage salaries
                 and benefits costs as well as full-time equivalents.

        Issue: NRC must adapt training and development programs to the
        changing needs of agency staff.

                 Action: NRC is focusing on a competency-based approach to
                 training to ensure a line-of-sight alignment between employees’
                 learning experiences and the agency’s mission. The agency plans
                 to explore and exploit training technologies such as online and
                 distance learning to deliver quality learning opportunities at best
                 cost, when and where they are needed.

        Issue: NRC must address knowledge management in light of the high
        number of senior experts and managers who are or will be eligible to
        retire.

                 Action: The agency has in place a variety of human capital
                 strategies to maintain and bolster knowledge and skills during a

                 period when a large number of experienced staff members are
                 becoming eligible to retire and current and new NRC employees
                 need the benefit of their knowledge. The agency continues to
                 expand and enhance its Knowledge Management program by
                 actively capturing lessons learned from subject matter experts,
                 improving access to lessons-learned and training programs, and
                 building an agencywide Knowledge Center.

        Issue: NRC needs to facilitate continuation of its space planning efforts.
        The first phase of construction of 3WFN, a 14-story building with a 4-level
        underground parking garage, continues on schedule. Completion of the
        first phase along with the second phase build out of the interior office
        space and interior design, is expected by August 2012. When completed,
        3WFN will provide office space for approximately 1,400 NRC staff
        members and allow the agency to reconsolidate headquarters staff who
        are now dispersed among four offsite locations. There is no funding in the



                                            32
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

        budget for either above ground or underground pedestrian access
        between One White Flint North and 3WFN. To access 3WFN, agency
        employees will have to cross Marinelli Road, which is a multi-lane road.
        NRC faces two challenges related to 3WFN. The agency must ensure
        that:

             Building requirements are met and within budget.

             Provisions are put in place to ensure safe pedestrian movement
             between the buildings.

                 Action: NRC will (1) review and approve the Construction
                 Drawings for the 3WFN building and the construction bid pricing;
                 (2) complete the interior fit-out of the building; (3) develop

                 specifications, procure and install workstations, and (4) relocate
                 approximately 1,400 staff and contractors as well as the
                 Professional Development Center, Data Center, and Headquarters
                 Operations Center to the building. The target date to complete
                 relocation into the 3WFN building remains December 2012. The
                 goal is to provide a quality working environment for NRC
                 employees within the established budget.

                 Action: The Montgomery County Department of Transportation
                 and NRC are continuing to work together to maximize pedestrian
                 safety around the White Flint complex. As part of the effort, the
                 Montgomery County Department of Transportation removed a
                 temporary crosswalk on Marinelli Road east of the median wall and
                 constructed a new crossing area near the entrance to White Flint
                 Complex. NRC installed sidewalk barriers along the south side of
                 Marinelli Road to direct pedestrians to the new crossing and to
                 discourage jay walking between the temporary One White Flint
                 North entrance on the south side of Marinelli Road and the
                 Metrorail parking garage on the north side while lobby construction
                 was underway.




                                            33
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



IV.   CONCLUSION

              The seven challenges contained in this report are distinct, yet are
              interdependent to accomplishing NRC’s mission. For example, the
              challenge of managing human capital affects all other management and
              performance challenges.

              The agency’s continued progress in taking actions to address the
              challenges presented should facilitate achieving the agency’s mission and
              goals.




                                                  34
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                                                                            Appendix
SCOPE AND METHODOLOGY

           SCOPE

           This evaluation focused on the IG’s annual assessment of the most
           serious management and performance challenges facing the NRC. The
           challenges represent critical areas or difficult tasks that warrant high level
           management attention. To accomplish this work, the OIG focused on
           determining (1) current challenges, (2) the agency’s efforts to address the
           challenges during Fiscal Year 2011, and (3) future agency efforts to
           address the challenges.

           METHODOLOGY

           OIG reviewed and analyzed pertinent laws and authoritative guidance,
           agency documents, and OIG reports, and sought input from NRC officials
           concerning agency accomplishments relative to the challenge areas and
           suggestions they had for updating the challenges. Specifically, because
           challenges affect mission critical areas or programs that have the potential
           to impact agency operations or strategic goals, NRC Commission
           members, offices that report to the Commission, the Executive Director for
           Operations, and the Chief Financial Officer were afforded the opportunity
           to share any information and insights on this subject.

           OIG staff conducted this evaluation from May through August 2011 at
           NRC headquarters.




                                               35
